WILMERHALE
Mark C. Fleming

November 19, 2019

+1 617 526 6909 (t)
+1 617 526 5000 (f)
mark.fieming@wilmerhale.com

Hon. Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Woodcrest Homes, Inc. v. Carousel Farms Metropolitan District, No. 19-607

Dear Mr. Harris,
I am counsel of record to Respondent Carousel Farms Metropolitan District in the abovecaptioned case. The response to the petition for certiorari in this matter is currently due on
December 12, 2019. Due to the press of other business and the upcoming holidays, I respectfully
request a 60-day extension of time within which to file a response to the petition, to and
including Monday, February 10, 2020.
Respondent has not previously sought any extensions in this matter. Petitioner previously sought
and received a 60-day extension to file the petition for certiorari. See No. 19Al 75 (order dated
Aug. 16, 2019).
Thank you for your consideration, and please do not hesitate to contact me if you require any
further information.

Yours sincerely,

~~)p~)
Mark C. Fleming

Cc: Jeffrey H. Redfern, Esq.

Wilmer C utler Pickering H ale and D orr
Be ijing

Berlin

Boston

Brussels

Denver

LLP,

Frankfurt

60 Stace Street, Boston, Massachusetts 02109
London

Los Angeles

New York

Palo Alto

Washington

